                            Office of the Inspector General


September 22, 2000

William A. Halter
Deputy Commissioner
 of Social Security

Inspector General


Management Advisory Report - State Fiscal Year 1997 Single Audit Findings: Roll-up
Report (A-07-99-84007)


The attached final Management Advisory report presents the results of our review. Our
objective was to identify areas of internal control weaknesses reported in State
Disability Determination Services financial audits covering State Fiscal Year 1997.

Please comment within 60 days from the date of this memorandum on corrective action
taken or planned on each recommendation. If you wish to discuss the final report,
please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
General for Audit, at (410) 965-9700.




                                              James G. Huse, Jr.

Attachment
           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION




    STATE FISCAL YEAR 1997
    SINGLE AUDIT FINDINGS:
       ROLL-UP REPORT

 September 2000   A-07-99-84007




  MANAGEMENT

ADVISORY REPORT

                    EXECUTIVE SUMMARY


OBJECTIVE
The objective of this management advisory report was to identify areas of internal
control weaknesses reported in State Disability Determination Services (DDS) financial
audits covering State Fiscal Year (SFY) 1997. To accomplish our objective, we
compiled and categorized DDS findings reported for 14 States in their SFY 1997 single
audits. 1 We also included findings reported by the Social Security Administration (SSA),
Office of the Inspector General (OIG) in its administrative cost audits at the California,
Delaware, and Missouri DDSs.2

BACKGROUND
Single Audit Act

The Single Audit Act of 1984 established requirements for audits of States, local
governments, and Indian tribal governments administering Federal financial assistance
programs. To implement the requirements, the Office of Management and
Budget (OMB) issued Circular A-128, “Audits of State and Local Governments.”
Circular A-128 required State and local governments receiving more than $100,000 per
year in Federal financial assistance to have an annual financial and compliance audit.
In 1990, OMB extended the single audit process to non-profit organizations by issuing
Circular A-133, “Audits of Institutions of Higher Education and Other Non-Profit
Organizations.”

On July 5, 1996, the President signed the Single Audit Act Amendments of 1996.3 The
Amendments extended the statutory audit requirement to non-profit organizations and
revised various provisions of the 1984 Act including raising the Federal financial
assistance dollar threshold for requiring an audit from $100,000 to $300,000. On
June 30, 1997, OMB issued revised Circular A-133, “Audits of States, Local
Governments, and Non-Profit Organizations” to implement the 1996 amendments and
rescinded Circular A-128.

The revised Circular A-133 was effective July 1, 1996, and applies to audits of
fiscal years beginning after June 30, 1996. This circular requires nonfederal entities

1
 The SFY begins on July 1 and ends on June 30, except for New York, which begins on April 1 and ends
on March 31, while Alabama and Arkansas begin on October 1 and end on September 30.
2
The California, Delaware, and Missouri OIG audits covered all or part of SFY 1997 DDS operations.
3
 The Amendments and revised Circular A-133 apply to all SFY 1997 single audits except the single audit
of New York. The Single Audit Act and Circular A-128 apply to New York for the period covered by the
audit.


                                                   i
that expend $300,000 or more per year in Federal awards to have a single or program-
specific audit conducted for that year.

State Disability Determination Services

SSA is responsible for the policies on developing disability claims under the Disability
Insurance (DI) and the Supplemental Security Income (SSI) programs. In accordance
with Federal regulations, the DDS in each State performs disability determinations
under the DI and SSI programs. The DDS determines claimants’ disabilities and
ensures that adequate evidence is available to support its determinations. SSA
reimburses the DDS for 100 percent of allowable expenditures.

There are 54 DDSs located in the 50 States, the District of Columbia, Puerto Rico,
Guam, and the Virgin Islands. All DDSs are subject to single audit except the federally
administered Virgin Islands DDS.

RESULTS OF REVIEW

Analysis of the 14 SFY 1997 single audit reports disclosed similar DDS findings in the
following categories: cash management, procurement, equipment and real property
management, reporting, and allowable costs. The findings relate to DDS’
noncompliance with Federal requirements because of weaknesses in internal controls.
Appendix A summarizes the single audit findings by DDS.

The OIG audits at the California, Delaware, and Missouri DDSs also disclosed findings
in the equipment and real property management, and allowable costs areas. These
findings also relate to DDS’ noncompliance with Federal requirements because of
weaknesses in internal controls. Appendix B summarizes the OIG’s findings.

In our opinion, comparison of the California, Delaware, and Missouri DDS findings in the
single audits and the OIG audits for the same reporting period disclosed significant
differences. The OIG reported findings on unallowable costs, overstated obligations,
disbursements recorded in the wrong year, and inadequate computer access controls.
The single audits, however, did not report all of these findings. This comparison is
presented in this report for informational purposes only. We will report our comparison
to the Federal agencies who are cognizant for the California, Delaware, and Missouri
single audits in separate management letters for any action they deem appropriate.

             SINGLE AUDIT                        OIG ADMINISTRATIVE AUDIT
           QUESTIONED COSTS ($)                    QUESTIONED COSTS ($)

                    $99,585                               $3,842,472




                                            ii
CONCLUSIONS AND RECOMMENDATIONS

The nature and frequency of the findings, reported in SFY 1997 single audits, require
SSA’s attention to improve DDS operations. In our opinion, the noncompliance with
Federal requirements is attributed to SSA’s limited internal control emphasis and
guidance to DDSs. We believe that SSA should be proactive in providing internal
control guidance to DDSs. To do so, SSA should provide the following instructions to
DDSs.

•   Adhere to the terms of the Cash Management Improvement Act agreement.

•   Follow procurement instructions established by SSA and the State.

•	 Obtain discounted services when competitively contracting for consultative
   examinations (CEs).

•   Implement controls to prevent unauthorized computer access.

•	 Develop a formal contingency plan to prevent disruption of services in the event of a
   disaster.

•	 Maintain complete and accurate equipment inventory records and perform periodic
   physical inventories.

•	 Implement effective procedures for preparing, reviewing, approving and timely
   reporting of information on the Report of Obligations, the Time Report of Personal
   Services and the Cost Effectiveness Measurement System Data Reporting Form.

•	 Ensure that costs charged to SSA benefit the program and are properly authorized
   and documented.

•	 Ensure CE fees do not exceed the highest rates paid by Federal or other State
   agencies for the same or similar types of service.

•   Adhere to the fees in the State approved CE fee schedule.


AGENCY COMMENTS

In response to our draft report, SSA agreed with all of our recommendations. (See
Appendix D for the full text of SSA’s comments to our draft report).




                                           iii
                           TABLE OF CONTENTS


                                                                                                                            Page


INTRODUCTION .................................................................................................................1


RESULTS OF REVIEW .....................................................................................................4


     CASH MANAGEMENT.................................................................................................4


    PROCUREMENT...........................................................................................................6


     EQUIPMENT AND REAL PROPERTY MANAGEMENT ........................................6


          �    Computer Control ..............................................................................................6


          �    Property Controls...............................................................................................8


     REPORTING ..................................................................................................................9


          �    Inaccurate Financial Reports...........................................................................9


          �    Untimely Financial Reports ............................................................................10


     ALLOWABLE COSTS ................................................................................................10


COMPARISON OF SINGLE AUDIT AND

OIG FINDINGS ..................................................................................................................12


CONCLUSIONS AND RECOMMENDATIONS ...........................................................14


AGENCY COMMENTS....................................................................................................15


APPENDICES

APPENDIX A - Single Audit Findings by State

APPENDIX B – Office of Inspector General Administrative Cost Audit Findings

APPENDIX C - Acronyms

APPENDIX D - Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments

APPENDIX F - SSA Organizational Chart

                             INTRODUCTION


OBJECTIVE
The objective of this management advisory report was to identify areas of internal
control weaknesses reported in State Disability Determination Services (DDS) financial
audits covering State Fiscal Year (SFY) 1997. To accomplish our objective, we
compiled and categorized DDS findings reported for 14 States in their SFY 1997 single
audits. 4 We also included findings reported by the Social Security Administration (SSA),
Office of the Inspector General (OIG) in its administrative cost audits at the California,
Delaware, and Missouri DDSs.5


                                        United States
                                    Single Audit Findings




BACKGROUND
Single Audit Act

The Single Audit Act of 1984 established requirements for audits of States, local
governments, and Indian tribal governments administering Federal financial assistance
programs. To implement the requirements, the Office of Management and
Budget (OMB) issued Circular A-128, “Audits of State and Local Governments.”
Circular A-128 required State and local governments receiving more than $100,000 per
year in Federal financial assistance to have an annual financial and compliance audit.

4
 The SFY begins on July 1 and ends on June 30, except for New York, which begins on April 1 and ends
on March 31, while Alabama and Arkansas begins on October 1 and ends on September 30.
5
The California, Delaware, and Missouri OIG audits covered all or part of SFY 1997 DDS operations.
                                                  1
In 1990, OMB extended the single audit process to non-profit organizations by issuing
Circular A-133, “Audits of Institutions of Higher Education and Other Non-Profit
Organizations.”

On July 5, 1996, the President signed the Single Audit Act Amendments of 1996.6 The
Amendments extended the statutory audit requirement to non-profit organizations and
revised various provisions of the 1984 Act including raising the Federal financial
assistance dollar threshold for requiring an audit from $100,000 to $300,000. On
June 30, 1997, OMB issued revised Circular A-133, “Audits of States, Local
Governments, and Non-Profit Organizations” to implement the 1996 amendments and
rescinded Circular A-128.

The revised Circular A-133 was effective July 1,1996, and applies to audits of
fiscal years (FY) beginning after June 30, 1996. Nonfederal entities that expend
$300,000 or more in a year in Federal awards shall have a single or program-specific
audit conducted for that year.

State Disability Determination Services

The Disability Insurance (DI) program established in 1954 under title II of the Social
Security Act (Act) (Public Law 96-265) provides benefits to disabled wage earners and
their families. In 1972, Congress enacted title XVI, the Supplemental Security Income
(SSI) program (Public Law 92-603). Title XVI provides a nationally uniform program of
income and disability coverage to financially needy individuals who are aged, blind or
disabled.

SSA is responsible for the policies on developing disability claims under the DI and SSI
programs. According to Federal regulations, disability determinations under the DI and
SSI programs are performed by the DDS in each State. The DDS determines
claimants’ disabilities and ensures that adequate evidence is available to support its
determinations. SSA reimburses the DDS for 100 percent of allowable expenditures.

There are 54 DDSs located in the 50 States, the District of Columbia, Puerto Rico,
Guam, and the Virgin Islands.




6
 The Amendments and revised Circular A-133 apply to all SFY 1997 single audits except the single audit
of New York. The Single Audit Act and Circular A-128 apply to New York for the period covered by the
audit.

                                                   2
SCOPE AND METHODOLOGY

From October 1998 to January 2000, we reviewed 49 SFY 1997 single audit reports
and Data Collection Forms (SF-SAC)7 to identify DDS findings.8 Of the 49 single audit
reports, 14 contained DDS findings. We reported the findings and related
recommendations on a State-by-State basis to SSA’s Management Analysis and Audit
Program Support Staff for audit resolution.

To develop this report, we reviewed:

     1.	 DDS findings in 14 SFY 1997 single audit reports, the related recommendations,
         and auditee responses;
     2.	 SF-SAC completed for 34 SFY 1997 single audits, obtained from
         http://harvester.census.gov/sac/asp/qryform.asp;
     3. Single Audit Act of 1984;
     4. Single Audit Act Amendments of 1996;
     5. OMB Circular A-128;
     6. Revised OMB Circular A-133;
     7. OMB Circular A-133 Compliance Supplement (June 1997 revision);
     8.	 OMB “Uniform Administrative Requirements for Grants and Cooperative
         Agreements to State and Local Governments (Common Rule);”
     9.	 OMB Circular A-87, “Cost Principles for State, Local and Indian Tribal
         Governments;”
    10. Title II of the Act;
    11. Title XVI of the Act;
    12. SSA’s Program Operations Manual System (POMS) instructions;
    13. Cash Management Improvement Act (CMIA) of 1990;
    14. SSA’s Systems Security Handbook; and
    15.	 OIG administrative cost audit reports for the California, Delaware, and Missouri
         DDSs.9

The Compliance Supplement identifies 14 types of compliance requirements that
auditors should consider in performing single audits, of which 6 categories apply to the
DI and SSI programs. Our review of the single audits identified findings in 5 of the
categories: cash management; procurement; equipment and real property
management; reporting; and allowable costs. This report presents the findings by the
related category identified in the compliance supplement.



7
 The SF-SAC, required by Circular A-133, provides information about the auditee, its Federal programs,
and the results of the single audit, including findings identified by the Federal program.
8
 SFY 1997 single audit reports for Puerto Rico and Washington, DC have not been issued because an
extension was granted by the Federal cognizant agency. Michigan and North Dakota will issue biennial
reports covering SFYs 1997 and 1998. The Virgin Islands DDS is not subject to the Single Audit Act
since it is federally administered.
9
 The OIG audits at the California, Delaware, and Missouri DDSs are the only OIG audits covering all or
part of SFY 1997 DDS operations.
                                                    3
                  RESULTS OF REVIEW


Analysis of the 14 SFY 1997 single audit reports disclosed similar DDS findings in the
following categories: cash management; procurement; equipment and real property
management; reporting; and allowable costs. The findings relate to DDS’
noncompliance with Federal requirements because of weaknesses in internal controls.
Appendix A summarizes the single audit findings by DDS.

The OIG audits at the California, Delaware, and Missouri DDSs also disclosed findings
in the equipment and real property management, and allowable costs areas. These
findings also relate to DDS’ noncompliance with Federal requirements because of
weaknesses in internal controls. Appendix B summarizes the OIG’s findings.

In our opinion, comparison of the California, Delaware, and Missouri DDS findings in the
single audits and the OIG audits for the same reporting period disclosed significant
differences. The OIG reported findings on unallowable costs, overstated obligations,
disbursements recorded in the wrong year, and inadequate computer access controls.
The single audits, however, did not report all of these findings. This comparison is
presented in this report for informational purposes only. We will report our comparison
to the Federal agencies who are cognizant for the California, Delaware, and Missouri
single audits in separate management letters for any action they deem appropriate.

CASH MANAGEMENT

Seven single audits disclosed that the State did not adhere to the terms of its CMIA
agreement:

•	 The State of Alabama did not use funding techniques specified in the CMIA to
   request Federal cash draws. The failure to draw funds in accordance with the CMIA
   caused an increase in the State’s interest liability in an amount not readily
   determinable by the State Auditor. This finding was also included in the State’s
   single audit for the prior year.

   In addition, the State of Alabama used incorrect information to develop warrant
   clearance patterns used for cash draws. The interest liability was not readily
   determinable by the State Auditor.

•	 The State of California understated the interest liability due to the Federal
   Government by a net amount of $388,500. Of this amount, $89,867 was related to
   SSA funding, caused by the omission of Federal funds advanced to the State for
   payroll expenditures and incorrect clearance patterns used to calculate cash draws.
   A similar finding was included in the State’s single audit for the prior year.




                                            4
•	 The State of Colorado’s methodology for identifying the amount and timing of cash
   draws was not adequate and resulted in cash draws not being executed in
   accordance with the CMIA.

•	 The State of Iowa routinely drew Federal funds several days in advance of
   disbursements. This resulted in $4,980 being paid to the Federal Government for
   interest charges.

   In addition, the State did not develop written procedures for preparing the CMIA
   annual report. Also, the beginning cash balances, account numbers, and payroll
   information used to prepare the CMIA annual report were not adequately verified.

•	 The State of Oklahoma incorrectly computed cash draws, did not draw funds in
   accordance with the CMIA, and did not maintain supporting documentation for cash
   draws.

•	 The State of Pennsylvania held Federal funds for extended periods of time resulting
   in material noncompliance with the CMIA. In addition, the State did not calculate the
   Federal interest liability or include the interest on the CMIA annual report. A similar
   finding was included in the State’s single audit for the prior year.

•	 The State of West Virginia did not reconcile the Federal grant cash balances to
   those of the State Auditor’s Office.

The Federal Government enacted the CMIA of 1990 to ensure efficiency, effectiveness,
and equity in transferring funds between the States and Federal Government. The law
requires the Federal Government to enter into an agreement with the State covering the
applicable Federal programs and to establish procedures and requirements for
transferring Federal funds.

The CMIA requires the States to minimize the time elapsing between the receipt and
disbursement of Federal funds. The CMIA allows the Federal Government to charge
interest when a State receives Federal funds in advance of disbursements. The CMIA
also allows the State to charge interest when the State incurs costs for Federal
programs before Federal funds are made available. The State must calculate Federal
and State interest liabilities for each applicable program and report liabilities to the
Federal Government on the Annual Report to the United States Department of the
Treasury.

The lack of cash management controls creates problems in States’ identifying and
assessing allowable cash needs. In addition, without reasonable assurance that
internal controls for Federal cash draws are in place, there could be premature cash
draws, which causes the Federal Government to lose interest on the funds.




                                            5
PROCUREMENT

Three single audits disclosed weaknesses related to procurements:

•	 The Arkansas single audit reported disbursements for computer software services in
   excess of the approved procurement amount by $5,329.

•	 The State of Colorado did not use competitive
                                                             FISCAL MANAGEMENT
   bidding and State-approved contracts to obtain
   consultative examinations (CEs) from               POMS DI 39542.205 states “CEs with
                                                      medical providers using competitively
   10 vendors. The DDS paid over $1.7 million, or     bid contracts should result in a
   76 percent of its total CE expenditures to these   substantially   reduced   cost     of
   10 vendors. Over $1 million was paid to            examinations.”
   1 vendor, a medical conglomerate employing
   25 doctors. In addition, the average cost per medical procedure paid to the
   conglomerate was about $6 greater, or approximately 6 percent more than the
   average cost per procedure paid to the other 9 vendors.

•	 The State of Pennsylvania did not enter into properly prepared and approved written
   agreements for the purchase of CEs. The state requires a written contract be issued
   when total payments to an individual provider are greater than $300. Testing by the
   auditor identified total payments to 3 providers of $64,190; $4,093; and $27,452.
   However, contracts were not executed with these providers. A similar finding was
   included in the State’s single audit for the prior year.

The DDS Management should ensure that procurement instructions are in accordance
with POMS, which requires contracts to be obtained through a competitive bidding
process10. Once the contract is awarded, a written agreement should be obtained that:
(1) defines a sound and complete procurement contract; (2) identifies the parties
covered in the contract; and (3) specifies the work to be performed.11

Without the proper implementation of procurement instructions, issues of acceptable
practice, conflicts-of-interest, and standards of ethical and moral behavior could be
questioned.

EQUIPMENT AND REAL PROPERTY MANAGEMENT

Computer Controls

Three SFY 1997 single audits disclosed weaknesses in computer controls. The
weaknesses included:

•	 The State of Alabama did not have a documented contingency plan to be followed in
   the event of a disaster that adversely affects the data processing operations.

10
 POMS DI 39542.205
11
 POMS DI 39452.215
                                             6
   In addition, the State did not have adequate security controls to protect mainframe
   data files from unauthorized users. Policies and procedures related to hiring and
   training of personnel, protection of
   data files with security software, and       SSA, OIG, OFFICE OF INVESTIGATIONS
                                                        INVESTIGATIVE PROJECT
   changes to programs and migration of
   programs to production did not exist      An employee was charged with accessing the SSA
                                             computer system to obtain information on Social
   or were not formalized in writing,        Security numbers (SSNs) that were given to him by
   distributed, and enforced.                an accomplice in another State. The employee was
                                                  paid $20 and $30 for each SSN he provided. The
                                                  information was then passed on to others who
•	 The State of Kentucky did not:                 used it to activate stolen credit cards. The theft
   (a) develop written policies and               allegedly attributed to the employee’s activities
   procedures for system security;                totaled at least $307,000. The employee resigned
                                                  after receiving a proposed termination letter and
   (b) use formalized security                    pleaded guilty to one count of Conspiracy to
   authorization procedures to establish,         Commit Credit Card Fraud in violation of 18
   modify, or revoke system access;               U.S.C.§029(b)(2).
   (c) develop written program software
   modification procedures; and (d) complete all software modifications necessary to
   ensure Year 2000 compliance. This finding was also included in the State’s single
   audit for the prior year.

•	 The State of Pennsylvania had significant weaknesses in the areas of logical access
   controls, physical access controls, environmental controls, and contingency
   planning. In addition, manual controls over data input, processing, and output
   controls were insufficient to compensate for the lack of general controls. A similar
   finding was included in the State’s single audit for the prior year.

DDSs operate computer systems critical to the administration of SSA’s disability
programs. These systems issue payments for administrative expenses, such as CEs
and contain confidential claimant information including SSNs. SSA requires DDSs to
develop, distribute, and implement a formal computer security policy addressing the
confidentiality of sensitive information, data integrity, and authorized access to
information. The DDSs computer security policy should identify computer access
controls to ensure only authorized users access the system. Access controls include
the use of personal identification numbers to identify users, passwords to authenticate
the user’s identity, and profiles to specify the functions users can perform.

The SSA’s Systems Security Handbook, dated December 1998, instructs DDSs to
make every reasonable effort to avoid disruption of critical applications processed by
automated data files and automated information systems (AIS) facilities. Furthermore, a
DDS must also minimize, and be prepared to recover from any disruption that occurs.
Contingency plans should be documented as a part of a DDS’ overall AIS security
program.

The OIG administrative cost audit at the California DDS also disclosed weaknesses in
access controls over the States’ computer system used to process SSA disability claims
(See Appendix B).

                                              7
Access controls and contingency planning are essential to the administration of the
disability program. Without access controls, the DDS is open to security risks.
Accidental or intentional modifications to confidential and sensitive information can have
adverse affects on the quality of services and lead to unauthorized and inaccurate
disbursements. The lack of a contingency plan could cause a disruption of DDS claims
processing and result in poor service to disability claimants.

Property Controls

The State of Georgia did not maintain proper equipment inventory records. The
auditors sampled 375 property items totaling $5,094,540 from the Department of
Human Resources, which includes the DDS. The following deficiencies were noted:

     — Thirty-five items totaling $88,479 could not be located.

     —	 Twelve items totaling $56,460 were surplused but not removed from the
        equipment inventory.

     —	 Six items were found in locations other than the location indicated in the
        equipment inventory records.

     — Thirty items did not have decal numbers attached.

     — Four items contained the wrong decal number.

     —	 Sixteen items totaling $46,992 were identified as missing or stolen, but were not
        included in the missing or stolen category on the equipment inventory records.

The State is responsible for the maintenance, tagging, and inventory of all property
acquired with SSA funding for performing the DDS function.12 Inventory records must
include: (1) a description; (2) source of funds used in the purchase; (3) cost;
(4) inventory number; (5) date purchased; and (6) physical location.

The lack of management reviews of inventory for equipment could result in
misappropriation or improper disposition of property acquired with Federal awards.




12
 POMS DI 39530.020
                                              8
REPORTING

Inaccurate Financial Reports

The State of Tennessee submitted inaccurate Reports of Obligations. The auditor
specifically identified the following:

   —	 Five of 13 disbursement line items, or 38.5 percent, reported for the quarter
      ended December 31, 1996, were misstated. When the errors were brought to
      the State’s attention, a revised Report of Obligations was prepared. However,
      the revised report did not reconcile with information on the State of Tennessee
      Accounting and Reporting System (STARS).

   —	 Six of 13 disbursement line items, or 46.2 percent, reported for the quarter ended
      September 30, 1996, were misstated, and the report’s totals were not
      mathematically accurate.

   —	 Two of 9 disbursement line items, or 22.2 percent, reported on the Computation
      of Medical Assistance Only Costs Attachment to the Report of Obligations for the
      quarter ended December 31, 1996, were understated by $2,077.

   In addition, the State of Tennessee also reported problems with Cost Effectiveness
   Measurement System (CEMS) Data Reporting. SSA developed CEMS to measure
   the costs of operating each DDS. CEMS also provides a methodology for
   determining the relative cost-effectiveness of each DDS.

   —	 An unreconcilable difference of $2,793,412 was noted between the total
      expenditures on the CEMS reports and the total claimed obligations on the
      Report of Obligations for the Federal Fiscal Year (FFY) ended
      September 30, 1996.

   —	 The CEMS Data Reporting Form for the quarter ended December 31, 1996, did
      not reconcile to STARS or to the employee time and attendance reports. The
      Data Validation Form was used to prepare the CEMS report. However, the Form
      contained 23 edit checks that questioned the validity and reasonableness of the
      numbers contained in the report, which were apparently ignored. The regular
      pay amount on the CEMS report was understated by $361,657, and overtime pay
      was understated by $28,796. Furthermore, hearing officers’ regular pay and
      vocational specialists’ regular pay were overstated by $13,932 and $597,
      respectively. Other costs were overstated by $280,040.

At the end of each FFY quarter, the DDS submits to SSA a Form SSA-4513 (Report of
Obligations) and Form SSA-4514 (Time Report of Personal Services). The Report of
Obligations shows DDS disbursements, unliquidated obligations, and cumulative
obligations for personal services, medical costs, indirect costs, and all other
nonpersonnel costs. The Time Report of Personal Services shows the regular and
overtime hours worked by DDS personnel on SSA disability determinations.

                                           9
The inaccuracies on the Reports of Obligations and CEMS reports indicate an internal
control weakness in the DDS’ preparation, review, and approval of these reports prior to
submitting them to Federal officials. Without the proper mechanisms in place to identify
risks of faulty reporting caused by such items as lack of knowledge, inconsistent
application, carelessness or disregard for standards, reliable processing of Federal
awards would not be performed.

Untimely Financial Reports

The State of New York did not submit the                POMS DI 39506.815 instructs DDSs to
                                                        submit the Report of Obligations and
quarterly Time Report of Personal Services to           the Time Report of Personal Services
SSA within the required timeframe. The State                            th
                                                        to SSA by the 25 day after the close
indicated that the timeframes for submission and        of each quarter. However, in a letter
review of audit staff time cards do not generally       dated October 22, 1992, SSA extended
permit collection and compilation of time data          the DDS’ due date for these forms to
                                                              th
                                                        the 30 day after the close of each
needed to complete the report prior to the              quarter.
reporting deadline. Late submission of this
financial report indicates an internal control
weakness in the DDS’ procedures for timely reporting of information to SSA. This
finding was also included in the State’s single audit for the prior year.

The DDSs are instructed to simultaneously submit the Report of Obligations and the
Time Report of Personal Services to SSA by the 30th day after the close of each
quarter. Without accurate, timely reporting, DDS obligations and expenditures cannot
be traced and accounted for each FY.

ALLOWABLE COSTS

Five single audits did not have adequate internal controls over allowable costs:

The State of Colorado did not regularly                           CE FEES
review or evaluate the fees used to pay
physicians for CEs to ensure fees reflect          States   are   required    by   POMS
                                                   DI 39545.210   to    develop a fee
current rates and do not exceed the highest        schedule that will be used by the DDS
rates paid by Federal or other State agencies      for payment of CEs. The DDS will
for the same or similar types of service. Also,    consider the fee schedule as a
the DDS did not always follow the State            maximum        payment       schedule.
approved fee schedule. Fees were adjusted          Authorized payments will represent
                                                   the lower of the provider’s usual and
based on limited physician availability in         customary charge, or the maximum
some geographic areas and physician                allowable charge under the fee
specialization. In addition, individual            schedule and should not exceed the
negotiations were made with physicians             highest rate paid by Federal or other
resulting in 2 different physicians in the same    agencies in the State for the same or
                                                   similar     types      of      service.
area receiving different fees for the same         Documentation to support rates paid
procedure.                                         to providers must be maintained.

•   The State of Massachusetts did not reconcile its advance checking account. The
    State could not determine the source of $2,200 included in the account. In addition,
                                             10
   proper segregation of duties did not exist since the same employee was responsible
   for reconciling the account, preparing checks for signature, and recording the
   transactions in the check register.

•	 The State of Missouri did not transmit DDS related refunds to the Department of
   Revenue for deposit on a timely basis. The State’s policy requires refund checks to
   be transmitted when receipts total $1,000 or at least once per week. The auditor
   noted numerous instances where individual refund checks exceeding $1,000 were
   not transmitted in accordance with this policy.

•	 The State of New York entered incorrect codes into the Payroll Allocation Cost
   System which resulted in the inaccurate reporting of indirect costs. A similar finding
   was included in the State’s single audit for the prior year.

   In addition, the State did not complete voucher reviews to monitor costs claimed by
   training contractors or conduct presettlement reviews of current expenditures or prior
   period adjustments to ensure the claims were made for allowable costs. A similar
   finding was included in the State’s single audit for the prior year.

•	 The State of Oklahoma did not maintain documentation of the assigned pay grade
   and step in an employee’s payroll file. The auditors could not determine if the
   employee’s salary was in accordance with the State’s salary schedule and reported
   a questioned cost of $4,389.

The OIG administrative cost audits for California, Delaware, and Missouri DDSs also
disclosed weaknesses in the area of allowable costs (See Appendix B).

Allowable costs must be reasonable and necessary for the performance and
administration of Federal awards as stated in OMB Circular A-87. A cost is allocable to
a program or department if the goods or services involved are charged or assigned to
such cost objective in accordance with benefits received. A cost may not be assigned
to a Federal award as a direct cost if any other cost incurred for the same purpose was
allocated to the Federal award as an indirect cost. In order to recover indirect costs, the
organization must prepare cost allocation plans, which apply to States or indirect cost
rate proposals in accordance with the guidelines provided in OMB’s circulars. Costs
must be net of all applicable credits that result from transactions that reduce or offset
direct or indirect costs.

Internal control directives require that nonfederal entities receiving Federal awards
establish and maintain internal controls designed to reasonably ensure compliance with
Federal laws, regulations and program compliance requirements. Transactions should
be properly recorded, accounted for, and executed in compliance with applicable laws
and regulations. The DDS is required to maintain supporting documentation listing
allowable and unallowable expenditures and adjustments for unallowable costs
recorded. Also, funds, property, and other assets should be safeguarded against loss
from unauthorized use or disposition.


                                             11
The absence of cost principles for goods and services charged to Federal awards
allows the risk for misappropriation or misuse of funds. In addition, unallowable
activities or costs could be charged to a Federal program and go undetected if the
proper internal controls are not in place. These controls need to be in place to ensure
that costs benefit the program and are properly authorized and documented.

COMPARISON OF SINGLE AUDIT AND OIG FINDINGS

The SSA’s OIG performs DDS administrative cost audits each year at the request of
SSA’s Office of Disability. The objectives of the audits are to determine whether:
(1) expenditures and obligations are properly authorized and disbursed; (2) Federal
funds drawn agree with total expenditures; and (3) internal controls over the accounting
and reporting of administrative costs are adequate.

The OIG performed two administrative cost audits, California and Delaware, covering
SFY 1997 DDS operations. An administrative cost audit was also performed at the
Missouri DDS for FFYs 1995 and 1996. Although the administrative cost audit is
outside the period covered by our review, it was noted that conditions found in
FFY 1996 continued to exist in FFY 1997.

The comparison of the single audit findings and OIG findings disclosed notable
differences. The findings reported by OIG but not the single audits are discussed
below.

California DDS

The OIG administrative cost audit at the California DDS covered the period July 1994
through April 1998.13 The audit identified overstated obligations of $3,789,128 because:
(1) unallowable indirect costs for activities that were incorrectly charged to the
departmental indirect cost pool; (2) ineligible personnel and other costs for activities that
did not benefit SSA’s programs; and (3) access controls over the States’ computer
system for processing SSA disability claims needed improvement (See Appendix B).

Delaware DDS

The OIG administrative cost audit at the Delaware DDS covered the 3-year period and
ended September 30, 1997.14 The Delaware DDS had: (1) incorrect expense payment
vouchers totaling $11,348 that were erroneously paid with the incorrect FY funds;
(2) nonpersonnel costs of $41,933 not supported by documentation; and (3) a payment
voucher for a CE was overpaid by $62.50 (See Appendix B).




13
 Common Identification Number (CIN): A-09-97-51006

14
 CIN: A-13-98-52015
                                              12
Missouri DDS

The OIG administrative cost audit at the Missouri DDS covered FFYs 1995 and 1996.15
Although the administrative cost audit is outside the period covered by our review, it
was noted that conditions found in FFY 1996 continued to exist in FFY 1997. A
disbursement in the amount of $5,000 from FY 1997 was incorrectly recorded in
FY 1996 (See Appendix B).




15
 CIN: A-07-97-51006
                                          13
  CONCLUSIONS AND RECOMMENDATIONS


The analysis of the 14 SFY 1997 single audit reports disclosed similar DDS findings in
the cash management, procurement, equipment and real property management,
reporting, and allowable costs areas. In addition, OIG’s audits at the California,
Delaware, and Missouri DDSs reported additional findings.

The nature and frequency of the findings require SSA’s attention to improve DDS
operations. The noncompliance with Federal requirements, in our opinion, is attributed
to SSA’s limited internal control emphasis and guidance to DDSs.

SSA should be proactive in providing internal control guidance to DDSs. To do so, SSA
should provide the following instructions to the DDSs.

1. Adhere to the terms of the CMIA agreement.

2. Follow procurement instructions established by SSA and the State.

3. Obtain discounted services when competitively contracting for CEs.

4. Implement controls to prevent unauthorized computer access.

5.	 Develop a formal contingency plan to prevent disruption of services in the event of a
    disaster.

6.	 Maintain complete and accurate equipment inventory records and perform periodic
    physical inventories.

7.	 Implement effective procedures for preparing, reviewing, approving and timely
    reporting of information on the Report of Obligations, the Time Report of Personal
    Services and the CEMS Data Reporting Form.

8.	 Ensure that costs charged to SSA benefit the program and are properly authorized
    and documented.

9.	 Ensure CE fees do not exceed the highest rates paid by Federal or other State
    agencies for the same or similar types of service.

10. Adhere to the fees in the State approved CE fee schedule.




                                           14
AGENCY COMMENTS

In response to our report, SSA agreed with all of our recommendations. (See Appendix
D for the full text of SSA’s comments to our report).

In its general comments to the report, SSA expressed concerns regarding the
comparison of the results of the single audits and the OIG administrative cost audits.
Specifically, SSA does not believe that the comparison should be reported to the
Federal agencies cognizant for the California, Delaware and Missouri single audits
since the States have already received and commented on OIG’s administrative cost
audit findings.

We are reporting the results of our comparison of the single audits and the OIG
administrative cost audits to the cognizant Federal agencies for the purpose of providing
information that will improve the quality of the single audits conducted on SSA’s
programs. We continue to believe that the differences identified in our comparison of
the single audits and the OIG administrative cost audits warrant the attention of the
cognizant Federal agencies. Furthermore, we hope that the cognizant Federal
agencies share the results of the comparison with the non-Federal auditors.




                                           15
APPENDICES

                                                                                 APPENDIX A



      SINGLE AUDIT FINDINGS BY STATE

          STATE FISCAL YEAR 1997


STATE                 SINGLE AUDIT FINDINGS ON                                  QUESTIONED
 DDS             DISABILITY DETERMINATION SERVICES                               COSTS ($)
        1.   Funds were not drawn in accordance with funding techniques
             specified in the Cash Management Improvement Act (CMIA)
                                                                                            0
             Treasury/State agreement.
                                                                                            0
        2.   Incorrect information was used in developing warrant
             clearance patterns to be used for cash draws.
 AL
        3.   There was no formal contingency plan, which includes
             policies and procedures to be followed in the event of a
                                                                                            0
             disaster that adversely affects the operations of its data
             processing center.
                                                                                            0
        4.   Security controls over data processing were inadequate.
 AK                             No Findings Reported                                        0
 AZ                             No Findings Reported                                        0
             Disbursements for computer software services were in
 AR
             excess of the approved procurement amount by $5,329.                   $    5,329
             Noncompliance with Federal regulations on the default
             procedures required by the Federal Government when
 CA          implementing the CMIA resulted in the State’s interest liability
             being understated by $388,500 of which $89,867 was Social
                                                                                        89,867
             Security Administration’s portion.
        1.   The methodology for identifying cash draws was not
             adequate.                                                                      0

        2.   Procedures for purchasing consultative examinations (CE)
 CO
             including using competitive bidding, reviewing the fee
             schedule, standardizing procedures for rate adjustments, and
             ensuring compliance with Federal and State regulations were                    0
             not developed.
 CT                             No Findings Reported                                        0

 DC                 Single Audit Not Issued (Extension Granted)                             0

 DE                             No Findings Reported                                        0
 FL                             No Findings Reported                                        0




                                              A-1

                                                                           APPENDIX A


          Inventory of equipment was not maintained in accordance with
          provisions of Office of Management and Budget’s Uniform
GA                                                                                  0
          Administrative Requirements and the State Property
          Management System Manual.
GU                          No Findings Reported                                    0
HI                          No Findings Reported                                    0
ID                          No Findings Reported                                    0

IL                          No Findings Reported                                    0

IN                          No Findings Reported                                    0
     1.   Federal funds were routinely drawn in advance of
          disbursements.                                                            0

     2.   Internal controls were not in place to ensure the accuracy of
IA
          the CMIA annual report.                                                   0

     3.   Controls were not in place over the administration of the CMIA
          Agreement.                                                                0
KS                          No Findings Reported                                    0
     1.   Written policies and procedures were not developed for
          system security.
                                                                                    0
     2.   Use of a formalized security authorization procedures to
          establish, modify or revoke system access were not
          implemented.                                                              0
KY
     3.   Written program software modification procedures were not                 0
          developed.
                                                                                    0
     4.   Software modifications were not developed for Year 2000
          compliance.
LA                          No Findings Reported                                    0
ME                          No Findings Reported                                    0

MD                          No Findings Reported                                    0

          Adequate internal controls were not in place over the advance
MA
          checking account.                                                         0

MI                 Single Audit Not Issued (Biennial Audit)                         0
MN                          No Findings Reported                                    0
MS                          No Findings Reported                                    0

          Funds were not transmitted to the Department of Revenue for
MO
          deposit on a timely basis.                                                0

MT                          No Findings Reported                                    0
NE                          No Findings Reported                                    0




                                          A-2

                                                                          APPENDIX A


NV                          No Findings Reported                                     0

NH                          No Findings Reported                                     0

NJ                          No Findings Reported                                     0

NM                          No Findings Reported                                     0
     1.   Incorrect codes were entered into the Payroll Allocation Cost
          System whereby recording inaccurate indirect costs under the
                                                                                     0
          Cost Allocation Plan.

     2.   The Department did not follow procedures in conducting
                                                                                     0
          presettlement reviews.
NY
     3.   Procedures were not followed for conducting voucher reviews
                                                                                     0
          to monitor training costs.

     4.   Quarterly Time Reports of Personal Services (SSA-4514) were
                                                                                     0
          not submitted timely.
NC                          No Findings Reported                                     0
ND                 Single Audit Not Issued (Biennial Audit)                          0
OH                          No Findings Reported                                     0
     1.   Cash draws incorrectly computed, funds were not drawn in
          accordance with the CMIA agreement and supporting
          documentation for cash draws was not maintained.
                                                                                     0
OK
     2.   Documentation was not maintained for an employee’s
          assigned pay grade or step, resulting in questioned costs of
                                                                              $   4,389
          $4,389.
OR                          No Findings Reported                                     0
     1.   State contracting and procurement standards were not
          adhered to when purchasing CEs.
                                                                                     0
     2.   General controls over the Disability Determination Services
          computer system needs to be strengthened.
                                                                                     0
PA
     3.   Funds drawn for employee payroll tax and benefits were held
          for an extended period of time resulting in a material
          noncompliance with cash management standards and an
          undetermined amount of interest liability due to the Federal
                                                                          Undetermined
          Government.
PR               Single Audit Not Issued (Extension Granted)                         0
RI                          No Findings Reported                                     0
SC                          No Findings Reported                                     0

SD                          No Findings Reported                                     0




                                         A-3

                                                                     APPENDIX A


     The Report of Obligations and the Cost Effectiveness
TN   Measurement System Data Reporting form contained
                                                                              0
     numerous mathematical errors and misstatements.

TX                     No Findings Reported                                   0

UT                     No Findings Reported                                   0

VI                   Single Audit Not Required                                0

VT                     No Findings Reported                                   0

VA                     No Findings Reported                                   0
WA                     No Findings Reported                                   0
     Cash balances were not reconciled to those of the State
WV   Auditor’s Office; therefore, existing financial data by grant
                                                                              0
     may not be accurate.
WI                     No Findings Reported                                   0

WY                     No Findings Reported                                   0


                                        Total Questioned Costs          $99,585




                                     A-4

                                                                 APPENDIX B



 OFFICE OF THE INSPECTOR GENERAL

ADMINISTRATIVE COST AUDIT FINDINGS


STATE        OFFICE OF THE INSPECTOR GENERAL                   QUESTIONED
 DDS                     FINDINGS ON                            COSTS ($)
             DISABILITY DETERMINATION SERVICES

        1. Unallowable indirect costs were claimed for
           activities that were incorrectly charged to the
           departmental indirect cost pool.
                                                                  $3,580,673
        2. Personnel and other costs for activities that did
           not benefit the Social Security Administration’s
 CA
           programs were incorrectly claimed in the
                                                                    208,455
           amount of $208,455.

        3. Access controls over the States’ computer
           system used to process SSA disability claims
                                                                            0
           needed improvement.
        1. Incorrect expense payment vouchers totaling
           $11,348 were erroneously paid with the
           incorrect fiscal year (FY) funds.
                                                                     11,348
        2. There was no documentation to support
           nonpersonnel costs of $41,933.
 DE                                                                  41,933
        3. A Consultative Examination (CE) payment was
           made for an incorrect amount.                                 63

        4. CE payments were made with incorrect FY
           funds.                                                       821

           A disbursement in the amount of $5,000 from
           the FY 1997 account was incorrectly recorded
 MO        in the financial management system as a
                                                                            0
           FY 1996 allotment account draw.



                                    Total Questioned Costs        $3,842,472
                                                APPENDIX C



          ACRONYMS



 AIS    Automated Information Systems

 CE     Consultative Examination

CEMS    Cost Effectiveness Measurement System

CMIA    Cash Management Improvement Act

DDS     Disability Determination Services

 DI     Disability Insurance

 FFY    Federal Fiscal Year

 FY     Fiscal Year

 OIG    Office of the Inspector General

OMB     Office of Management and Budget

POMS    Program Operations Manual System

 SFY    State Fiscal Year

 SSA    Social Security Administration

 SSI    Supplemental Security Income

        State of Tennessee Accounting and
STARS
        Reporting System
                   APPENDIX D



AGENCY COMMENTS

COMMENTS OF THE SOCIAL SECURITY ADMINISTRATION (SSA) ON THE
OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT, "REVIEW OF
STATE FISCAL YEAR 1997 SINGLE AUDIT FINDINGS” (A-07-99-84007)

We appreciate the opportunity to comment on the draft report.
Following are our comments on the recommendations.

OIG Recommendation 1

SSA should instruct the DDSs to adhere to the terms of the Cash
Management Improvement Act (CMIA) agreement.


SSA Comment

We agree with the intent of this recommendation and will issue a
DDS Administrators Letter within 90 days reminding the States to
adhere to the terms of their CMIA agreements with the Department
of Treasury.


OIG Recommendation 2

SSA should instruct the DDSs to follow procurement instructions
established by SSA and the State.


SSA Comment

We agree and will issue a DDS Administrators Letter within 90
days, reminding the States to follow appropriate procurement
instructions established by SSA and the State.


OIG Recommendation 3

SSA should instruct the DDS to obtain discounted services when
competitively contracting for consultative examinations (CEs).

SSA Comment

We agree and will issue a DDS Administrators Letter within 90
days, reminding the States to obtain discounted services when
competitively contracting for CEs.




                               D-2
OIG Recommendation 4

SSA should instruct the DDSs to implement controls to prevent
unauthorized computer access.


SSA Comment

We agree. On May 25, 1999, SSA issued a Regional Commissioners
Memorandum and DDS Administrators Letter regarding DDS systems
security.


OIG Recommendation 5

SSA should instruct the DDSs to develop a formal contingency
plan to prevent disruption of services in the event of a
disaster.


SSA Comment

We agree. SSA is reviewing existing instructions governing the
federal/state relationship and will revise instructions, where
appropriate, regarding physical security requirements for the
DDSs. We expect that a formal contingency plan will be
developed by May 2001.


OIG Recommendation 6

SSA should instruct the DDSs to maintain complete and accurate
equipment inventory records and perform periodic physical
inventories.


SSA Comment

We agree and will issue a DDS Administrators Letter within 90
days reminding the States to maintain complete and accurate
equipment inventory records and perform periodic physical
inventories.




                               D-3
OIG Recommendation 7

SSA should instruct the DDSs to implement effective procedures
for preparing, reviewing, approving, and timely reporting of
information on the Report of Obligations, the Time Report of
Personal Services, and the Cost Effectiveness Measurement System
Data Reporting Form.


SSA Comment

We agree. On July 10, 2000, as a result of OIG's Final Report
“Review of State Fiscal Year 1996 Single Audit Findings”
(A-07-98-71002), SSA issued a note to the Regional Offices’
Center for Disability Directors to remind the DDSs to implement
effective procedures for preparing, reviewing, approving, and
timely reporting of information on the Report of Obligations and
the Time Report of Personal Services.

As a result of this SFY 1997 audit, SSA will issue a DDS
Administrators Letter within 90 days as an additional reminder.


OIG Recommendation 8

SSA should instruct the DDSs to ensure that costs charged to SSA
benefit the program and are properly authorized and documented.


SSA Comment

We agree and will issue a DDS Administrators Letter within 90
days reminding the States to ensure that costs charged to SSA
benefit the program, and are properly authorized and documented.


OIG Recommendation 9

SSA should instruct the DDSs to ensure CE fees do not exceed the
highest rates paid by Federal or other State agencies for the
same or similar types of services.


SSA Comment

We agree and will issue a DDS Administrators Letter within 90
days reminding the States to ensure CE fees do not exceed the




                               D-4
highest rates paid by Federal or other State agencies for the
same or similar types of services.


OIG Recommendation 10

SSA should instruct the DDSs to adhere to the fees in the State
approved CE fee schedule.


SSA Comment

We agree and will issue a DDS Administrators Letter within 90
days reminding the States to adhere to the fees in the State
approved CE fee schedule.


General Comments

We have concerns regarding the comparison of the single audits
and OIG's DDS administrative cost audit findings in this draft
report. Specifically, OIG’s statement on page 12, “The
comparison of the single audit findings and OIG findings
disclosed notable differences." The differences in the two
types of audits may be explained in the POMS Section 39554.210,
which states that OIG audits are intended to “…build upon the
work already done by the State in the audit conducted under the
Office of Management and Budget Circular A-128 provisions.”

Based on the POMS reference above, we question OIG’s statement
in the draft report on page ii that “We will report our
comparison [of the single audit report findings and OIG’s report
findings] to the Federal agencies who are cognizant for the
California, Delaware and Missouri single audits in separate
management letters for any action they deem appropriate.” Since
the States have already received and acted upon OIG’s
findings/recommendations resulting from the OIG audits, we
believe that further contact with the States is unnecessary.




                               D-5
                                                                         APPENDIX E



              OIG CONTACTS AND

           STAFF ACKNOWLEDGMENTS


OIG Contacts

   Roger Normand, Director, Disability Program Audit Division, (617)-565-1822

   Mark Bailey, Deputy Director, (816) 936-5591

Acknowledgements

In addition to those named above:

   Shannon Agee, Auditor

   Wanda Craig, Auditor

   Cheryl Robinson, Writer-Editor

For additional copies of this report, please contact Office of the Inspector General’s
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-07-99-84007.
                        APPENDIX F



SSA ORGANIZATIONAL CHART

